              CLOSEOUT MEMORANDUM FOR A-01090028
We learned that the university1 received an email message from the complainant2 that
alleged the subject3 committed plagiarism (intellectual theft) when he published the
complainant's ideas. The same email message was sent to our office as well. We
deferred our inquiry to the University.

The University informed NSF OIG that the complainant had provided insufficient
information to evaluate the allegation. The complain+t has submitted several allegations
to our office, which resulted in the initiation of four cases at four uni~ersities.~ In this
case, as in the other three cases, the complainant failed to provide any evidence to
support the allegation. Because he failed to provide NSF OIG with substantive
documentation in support of this allegation, we notified the University that we are closing
this case.

This inquiry is closed and no further action will be taken.


cc: Investigations, IG




                                    resent affiliation is un
                                     faculty member in the



                                         Page 1 of 1                               A 01-28
